   February 26, 2002




Acquisition
Major Defense Acquisition Programs
Cost Growth
(D-2002-054)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

GPRA                 Government Performance and Results Act
MDAP                 Major Defense Acquisition Program
USD (AT&L)           Under Secretary of Defense for Acquisition, Technology, and
                       Logistics
                       Office of the Inspector General, DoD
Report No. D2002-054                                           February 26, 2002
 (Project No. D2001AB-0066.001)

             Major Defense Acquisition Programs Cost Growth

                                  Executive Summary

Introduction. The Government Performance and Results Act (GPRA) of 1993, Public
Law 103-62, initiated program performance reform with a series of pilot projects by
setting program goals, measuring program performance against those goals, and
reporting publicly on progress achieved. This report is one in a series of reports on
how DoD meets the GPRA goals and discusses the FY 2000 GPRA Performance
Measure 2.4.1, Major Defense Acquisition Programs Cost Growth, on keeping the cost
growth to 1 percent annually.

Major defense acquisition programs (MDAPs) are designated by the Under Secretary of
Defense for Acquisition, Technology, and Logistics (USD [(AT&L]) as a major
defense acquisition program, or are estimated by USD (AT&L) as a program that
requires an eventual total expenditure of more than $365 million in FY 2000 constant
dollars for research, development, test, and evaluation or more than $2.19 billion in
FY 2000 constant dollars for procurement. Cost growth is the difference between the
MDAP program costs in the current year’s budget and the previous year’s budget,
divided by the program costs in the previous year’s budget.

Objectives. Our objective was to evaluate the MDAP cost growth for tracking
performance under GPRA, as indicated in the FY 2000 Annual Report of the Secretary
of Defense. Specifically, we determined whether DoD met the GPRA performance
goal established for MDAP cost growth.

Results. In FY 2000, cost growth for MDAPs exceeded the 1 percent goal established
under the GPRA Performance Goal 2.4, Improve Acquisition. DoD accurately
reported the 2.9 percent cost growth increase in the GPRA Performance Report for
FY 2000.

Management Comments. We provided a draft of this report on December 18, 2001.
No written response was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                         i

Audit Results
     Background                                                           1
     Objectives                                                           1

Finding
     Major Defense Acquisition Programs Cost Growth                       2


Appendixes
     A. Audit Process                                                     5
         Scope                                                            5
         Methodology
         Prior Coverage                                                   6
     B. Definitions of Cost Variance Categories in Selected Acquisition
         Reports                                                          7
     C. Report Distribution                                               8
Background
     The Government Performance and Results Act of 1993 (Public Law 103-62).
     The Government Performance and Results Act (GPRA) seeks to improve
     Government-wide program effectiveness, accountability, and ultimately, public
     confidence by requiring agencies to identify measurable annual performance
     goals. DoD issued the GPRA Performance Report for FY 2000 in the 2001
     Annual Report of the Secretary of Defense. The GPRA Performance Report
     summarizes the results that DoD achieved in executing the FY 2000
     performance plan.

     In 1998, the cost growth for major defense acquisition programs (MDAPs) was
     approved as a performance measurement under the GPRA Performance
     Goal 2.4, Improve Acquisition. Reasons for cost growth include technical risk
     and uncertainty inherent in complex development programs, schedule slippage,
     and overly optimistic cost estimations. The cost growth metric captures costs
     associated with schedule, engineering, estimating, support changes, and other
     program impacts; however, the cost growth metric does not measure costs
     related to inflation and changes in the quantities ordered. After removing
     inflation- and quantity-related costs, the remaining costs are attributed to
     changes within the program itself. See Appendix B for a definition of cost
     variance categories.

     The goal of GPRA Performance Measure 2.4.1, MDAP Cost Growth, is to
     minimize the growth in costs of MDAPs to no more than 1 percent annually.
     The Under Secretary of Defense for Acquisition, Technology, and Logistics
     (USD [AT&L]) determined the MDAP cost growth for FY 2000, based on a
     review of the cost growth for 72 programs that were in progress during
     FYs 1999 and 2000.

Objectives
     Our objective was to evaluate the MDAP cost growth for tracking performance
     under GPRA, as indicated in the FY 2001 Annual Report of the Secretary of
     Defense. Specifically, we determined whether DoD met the GPRA
     performance goal established for the MDAP cost growth. Appendix A discusses
     the audit scope, methodology, as well as prior audit coverage.




                                        1
           Major Defense Acquisition Programs
           Cost Growth
           In FY 2000, cost growth for MDAPs exceeded the 1 percent goal
           established under the GPRA Performance Goal 2.4, Improve
           Acquisition. The actual cost growth of 2.9 percent was attributed
           to cost changes associated with schedule, engineering, and
           estimating. DoD accurately reported the 2.9 percent cost growth
           increase in the GPRA Performance Report for FY 2000.

Acquisition Performance Goal 2.4
    A principal resource management objective of the Quadrennial Defense
    Review in 1997 was to understand and manage financial risk in the
    sweeping modernization plans of DoD. The Quadrennial Defense
    Review identified three historical sources of disruption to Defense
    modernization plans: the migration of acquisition funds to operating
    accounts, the accumulation of projected modernization procurement
    funding in the years beyond the Future Years Defense Plan, and the
    technical risk and program uncertainty inherent in complex, leading-edge
    development efforts that inevitably drive up costs and require offsetting
    reductions in other programs. The GPRA Performance Goal 2.4
    includes three metrics--cost growth, cycle time, and weapons system
    testing--that represent the more significant initiatives DoD has
    undertaken to control funding migration, reduce or eliminate the
    accumulation of long-term procurement funding projections, and reduce
    technical risk during research and development.

    DoD reporting was compared against criteria established for determining
    the MDAP cost growth performance. The goal was to keep the MDAP
    metric to an increase of 1 percent or less each year. MDAPs continuing
    from the previous year were included in this metric. Adjustments were
    also made for inflation and changes in quantities ordered. DoD reported
    an annual MDAP cost growth of minus .3 percent, plus 3.1 percent, and
    plus 2.9 percent in FYs 1998, 1999, and 2000, respectively.

Cost Growth Database
    The USD (AT&L) established a database to record DoD cost information
    for all MDAPs and to determine cost growth for the programs.
    Information was collected from Selected Acquisition Reports and
    transferred to the database where it became the basis for determining the
    MDAP cost growth for the 72 programs with Selected Acquisition
    Reports in FYs 1999 and 2000.



                                2
           Based on the information in the data base, DoD reported that it did not meet its
           FY 2000 goal of keeping the MDAP cost growth to an increase of 1 percent or
           less each year. DoD computed an average MDAP cost growth increase of
           2.9 percent for the 72 programs. DoD reported this information to the
           President and the Congress in Appendix I of the 2001 Annual Report,
           “Government Performance and Results Act, FY 2000 Performance Report,”
           March 2001.

           Program managers for the 72 MDAPs reported cost variances in the Selected
           Acquisition Reports in seven categories: economic, quantity, schedule,
           engineering, estimating, support, and other as defined in Appendix B. To
           determine the extent of MDAP cost growth1 during FY 2000, we totaled the cost
           variances reported in the Selected Acquisition Reports by category. Excluding
           inflation- and quantity-related costs, the variances totaled a plus $20.7 billion:
           $12.7 billion in estimating changes, $4.4 billion in engineering cost changes,
           and $3.6 billion in schedule changes. The MDAP cost growth was the
           difference between the MDAP program costs in the current year’s budget and
           the previous year’s budget ($20.7 billion), divided by the program costs for the
           previous year ($705 billion). This calculation resulted in an MDAP cost growth
           increase of 2.9 percent from FY 1999 through FY 2000, the same percentage
           reported to the President and the Congress.

           The cost information in the database agreed with cost information reported for
           Selected Acquisition Reports for FY 2000 except for 2 of the 72 programs. The
           difference in cost information between those two sources was $31.7 million.
           The following table shows the differences noted for the two MDAPs.


                                      Program Cost Variances
                                            (in millions)

           Program              Type of Change           Per SAR1     Per database         Difference
          Army Crusader          Engineering             $936.2        $955.7             $<19.5>
          Army Crusader          Estimating              <16.6>        < 1.8>              <14.8>
          ATIRCM/CMWS2           Support                     2.6_           0_             ___2.6_
            Total                                        $922.2        $953.9             $<31.7>
           1
               1999 Selected Acquisition Report
           2
               Advance Threat Infrared Countermeasures/Common Missile Warning System


           The net cost difference of $31.7 million was not enough to change the percent of
           the MDAP cost growth determined between FYs 1999 and 2000. The cost
           information in the USD (AT&L) database was corrected during the audit.


1
    Cost growth = (program costs for current year – program costs for previous year)/program cost for
    previous year.

                                                     3
Conclusion
    DoD reported that it did not meet its FY 2000 goal of 1 percent cost the
    growth and that costs rose 2.9 percent. DoD accurately reported this
    cost information from cost variance information reported in the Selected
    Acquisition Reports for FY 2000.




                                4
_______________________________________________________________________


Appendix A. Audit Process
      Scope
      We evaluated the MDAP cost growth goal of the GPRA. Specifically, we
      reviewed Performance Measure 2.4.1, MDAP Cost Growth, one of three
      metrics for Acquisition Performance Goal 2.4, Improve Acquisition. We
      reviewed cost information in Selected Acquisition Reports for FYs 1999 and
      2000. We did not verify the accuracy of the cost information reported by the
      MDAP program managers in the Selected Acquisition Reports. We interviewed
      and obtained documentation from the Office of the USD (AT&L).

      Audit Type, Dates and Standards. We performed this program audit from
      January through November 2001 in accordance with generally accepted
      government auditing standards.

      Use of Computer-Processed Data. We did verify computer-processed data to
      perform this audit.

      Contacts During the Audit. We visited or contacted individuals within DoD
      and the Analytical Sciences Corporation, Arlington, Virginia.

      General Accounting Office High-Risk Area. The General Accounting Office
      has identified several high-risk areas in the DoD. This report provides coverage
      of the DoD weapons system acquisition high-risk area.

      Review of Management Controls. We did not review the management control
      program for the GPRA Performance Measure 2.4.1, MDAP Cost Growth. We
      limited our review of controls to the reliability of data taken from the Selected
      Acquisition Reports and recorded in the USD (AT&L) cost growth database.
      We determined that those controls were adequate.
      Methodology
      We obtained a copy of the GPRA Performance Measure 2.4.1, MDAP Cost
      Growth database that included 72 programs and related cost variance data. We
      reviewed the Selected Acquisition Report information for FY 2000 to extract
      cost variance data from section 13, Cost Variance Analysis. We examined the
      Selected Acquisition Report variance categories and excluded any amount
      relating to economic and quantity changes. The change explanation section
      describes changes in current cost estimates since the previous Selected
      Acquisition Report input information for FY 1999. We totaled dollar amounts
      (then-year dollars) for the remaining cost variance categories of schedule,
      engineering, estimating, support, and other. The sum of the calculations is



                                          5
_______________________________________________________________________


      called the adjusted dollar change. The total cost variance for the 72 programs
      was divided by the total program cost estimate for FY 1999 to derive the annual
      cost growth of 2.9 percent.


Prior Coverage
      General Accounting Office
      The General Accounting Office has conducted multiple reviews related to
      GPRA. Unrestricted General Accounting Office reports can be accessed over
      the Internet at http://www.gao.gov.
      Inspector General, DoD
      Inspector General, DoD, Report No. D-2001-128, “Government Performance
      and Results Act Goals: Surge Sealift and Forces Supported by Land- and Sea-
      Based Pre-Positioning,” May 23, 2001

      Inspector General, DoD, Report No. D-2001-080, “Government Performance
      and Results Act Goals: Disposal of Excess Real Property,” March 15, 2001

      Inspector General, DoD, Report No. D-2001-045, “Government Performance
      and Results Act Goals: Tank Miles,” February 7, 2001

      Inspector General, DoD, Report No. D-2001-033, “Government Performance
      and Results Act: Unfunded Depot Maintenance Requirements,” January 12,
      2001

      Inspector General, DoD, Report No. D-2001-021, “Government Performance
      and Results Act Reporting on Defense Working Capital Funds Net Operating
      Results,” January 10, 2001

      Inspector General, DoD, Report No. D-2000-136, “Reporting of Performance
      Measures in the DoD Agency-Wide Financial Statements,” May 31, 2000
_______________________________________________________________________


Appendix B. Definitions of Cost Variance
            Categories in Selected Acquisition
            Reports
      The following cost variance categories are recorded in the Selected Acquisition
      Report:

         •   Economic change. A change due only to price level changes in the
             economy (inflation).

         •   Quantity change. A change in the number of units of an end item of
             equipment.

         •   Schedule change. A change in a procurement or delivery schedule,
             completion date, or intermediate milestone for development or
             production.

         •   Engineering change. An alteration in the physical or functional
             characteristics of a system or item delivered, to be delivered, or under
             development after establishment of such characteristics.

         •   Estimating change. A change in program cost to correct an error in the
             baseline cost estimate, refinement of a prior current estimate, or change
             in program or cost estimating assumptions and techniques in quantity,
             engineering, or schedule variance categories.

         •   Support change. Generally includes all cost changes associated with
             training and training equipment, peculiar support equipment, data,
             operational site activation, initial spares, and repair parts.

         •   Other. A change in program cost due to natural disasters, work
             stoppage, and similarly unforseeable events not covered in other variance
             categories.

      The economic and quantity change categories are excluded when calculating the
      data point for the MDAP cost growth to adjust for inflation and change in
      quantities ordered. The adjustment is made in an effort to arrive at a more
      accurate annual cost growth.




                                          7
_______________________________________________________________________


Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
_______________________________________________________________________


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          9
_______________________________________________________________________


Audit Team Members
     The Acquisition Management Directorate, Office of the Assistant Inspector
     General for Auditing, DoD, prepared this report. Personnel of the Office of
     the Inspector General, DoD, who contributed to the report are listed below.


     Mary L. Ugone
     John E. Meling
     Michael E. Simpson
     George A. Leighton
     Ronald L. Nickens
     Carrie J. Gravely
     Paul R. Glenn
     Ann A. Ferrante
